U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

April 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Diné Citizens Against Ruining Our Environment v. Bureau of Indian Affairs,
No. 19-1166
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case lists on its cover two nonfederal respondents and several federal agencies and one federal officer as respondents. Although
the petition has thus identified several federal entities as parties, none of those federal entities
participated as parties in the court of appeals, where the United States filed a brief and participated
at oral argument only as an amicus curiae. See 2/5/19 C.A. Order; 2/21/18 C.A. Order. The
government does not intend to file a response to the certiorari petition unless requested by the
Court.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-1166
DINE CITIZENS AGAINST RUINING OUR
ENVIRONMENT, ET AL.
BUREAU OF INDIAN AFFAIRS, ET AL.

SARAH ELAINE HARRINGTON
GOLDSTEIN & RUSSELL
7475 WISCONSIN AVE.
STE. 850
BETHESDA, MD 20814
202-362-0636
SH@GOLDSTEINRUSSELL.COM
SARA KOBAK
SCHWABE, WILLIAMSON AND WYATT, PC.
1211 SW FIFTH AVENUE
STE 1900
PORTLAND, OR 97204-3795
503-222-9981
SKOBAK@SCHWABE.COM
ROMAN MARTINEZ V
LATHAM & WATKINS LLP
555 11TH STREET, NW
WASHINGTON, DC 20004
202-637-3377
ROMAN.MARTINEZ@LW.COM

